     Board of Governors of the Federal Reserve System




APPLYING AGREED-UPON PROCEDURES—
STATEMENT OF FINANCIAL ACCOUNTING
          STANDARDS No. 106




    OFFICE OF INSPECTOR GENERAL

                                                   February 2007

                     RESTRICTED FR
                                        February 2, 2007



Mr. Todd Glissman
Senior Associate Director
Management Division
Board of Governors of the Federal Reserve System
Washington, DC 20551

Subject: Applying Agreed-Upon Procedures—Statement of Financial Accounting Standards
        No. 106

Dear Mr. Glissman:

     The retirement plan for employees of the Federal Reserve System (System) is a defined
benefit pension plan established to provide pension benefits to eligible employees of the Federal
Reserve Banks and the Board of Governors of the Federal Reserve System (Board). In 2000, the
Office of Employee Benefits (OEB) outsourced most retirement plan administrative and
processing functions to Hewitt Associates (Hewitt). To administer the plans, Hewitt stores
employee census data in their Total Benefits Administration (TBA) system. On an annual basis,
Hewitt forwards census data to the Federal Reserve System’s actuary, Towers Perrin, to perform
year-end actuarial calculations and prepare related financial statement disclosures.

     During the 2005 financial statement audit, the Board’s external auditors noted issues with
the accuracy of census data used for actuarial calculations. As part of an effort to implement
recommendations made by the external auditors, Management Division (MGT) staff compared
census data used by the actuary to support Statement of Financial Accounting Standards No. 106,
Employers’ Accounting for Postretirement Benefits Other than Pensions (FAS106), with
comparable data in the Board’s human resources management system.

      The Office of Inspector General has performed the procedures that were agreed upon by
you and your staff, solely to help you respond to recommendations made during the 2005
financial statement audit and to assist you in verifying the accuracy of the comparison performed
by MGT staff on the FAS106 data files. The adequacy of these procedures to meet your
objectives is your responsibility, and we make no representation in that respect. We agreed to
compare selected census data provided by Towers Perrin with data retrieved from the Board’s
human resources management system. The specific data elements we compared and the results
of our comparison are described in the enclosure. The enclosure also provides a comparison of
our results with that of MGT staff. We provided the details of our exceptions to MGT staff
during our closing meeting.
Mr. Todd Glissman                                 2                              February 2, 2007


      In performing the agreed-upon procedures, we conducted our work in accordance with U.S.
generally accepted government auditing standards which incorporate financial audit and
attestation standards established by the American Institute of Certified Public Accountants.
These standards also provide guidance for performing and reporting the results of agreed-upon
procedures.

     We were not engaged to and did not conduct an examination, the objective of which would
be the expression of an opinion on the accuracy of the census data. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported to you. We completed the agreed-upon
procedures on January 18, 2007.

   We provided a draft of this letter to MGT staff, along with its enclosure, for review and
comment. They concurred with the contents of this letter and its enclosure.

     This report is intended solely for the information and use of MGT and should not be used
by those who have not agreed to the procedures and have not taken responsibility for the
sufficiency of the procedures for their purposes. However, this report will be added to our
publicly-available web site, summarized in our next semiannual report to the Congress, and is
not subject to any distribution limitations. Please contact me if you would like to discuss this
report or any related issues.

                                            Sincerely,

                                             /signed/

                                         Barry R. Snyder
                                        Inspector General

Enclosure

cc: Governor Kevin M. Warsh
    Vice Chairman Donald L. Kohn
    Governor Randall S. Kroszner
    Mr. Stephen Malphrus
    Ms. Fay Peters
    Mr. Darrell Pauley
    Mr. Christopher Suma
    Mr. Anthony Castaldo
    Ms. Cynthia Gray




                                       RESTRICTED FR
                                                                                              Enclosure

                                                    3

The table below details the agreed-upon procedures we performed as well as our findings and
results. The Towers Perrin file was provided by MGT staff in an e-mail dated December 1, 2006,
and includes actuarial data used for the January 1, 2006, FAS106 valuation. The Board file was
provided by MGT staff in an e-mail dated November 22, 2006, and includes individuals who were
in the Board’s human resources management system as of January 1, 2006. The results of the
MGT staff comparison were received in an e-mail dated December 6, 2006.

 Data Elements                                          Description of findings and results
 a. Name

 Compare the TP_Name field in the Towers
 Perrin file to the Name field in the Board file.

 (i) Active employees                                   We found nine exceptions as a result of the
                                                        procedure: The names of nine employees
                                                        do not exactly match. The MGT staff
                                                        comparison also found the same nine
                                                        exceptions.

 (ii) Inactive employees                                We found ten exceptions as a result of the
                                                        procedure: The names of ten inactive
                                                        employees do not exactly match. The
                                                        MGT staff comparison also found the same
                                                        ten exceptions.
 b. Social Security Number

 Compare the TP_SSN field in the Towers Perrin
 file to the BD_SSN field in the Board file.

 (i) Active employees                                   We found no exceptions as a result of the
                                                        procedure. The MGT staff comparison also
                                                        found no exceptions.

 (ii) Inactive employees                                We found two exceptions as a result of the
                                                        procedure: The social security numbers of
                                                        two inactive employees do not exactly
                                                        match. The MGT staff comparison also
                                                        found the same two exceptions.
 c. Date of Birth

 Compare the TP_BirthDate field in the Towers
 Perrin file to the BirthDate field in the Board
 file.
 (i) Active employees                                   We found no exceptions as a result of the
                                                        procedure. The MGT staff comparison
                                                        also found no exceptions.
                                                                                         Enclosure

                                                 4

(ii) Inactive employees                              We found two exceptions as a result of the
                                                     procedure: The birth dates of two inactive
                                                     employees do not exactly match. The
                                                     MGT staff comparison also found the same
                                                     two exceptions.
d. Sex

Compare the TP_Sex field in the Towers Perrin
file to the Sex field in the Board file.

(i) Active employees                                 We found no exceptions as a result of the
                                                     procedure. The MGT staff comparison
                                                     also found no exceptions.

(ii) Inactive employees                              We found two exceptions as a result of the
                                                     procedure: The sex of two inactive
                                                     employees does not exactly match. The
                                                     MGT staff comparison also found the same
                                                     two exceptions.
e. Annual Base Benefits Rate

Compare the TP_BasePay field in the Towers
Perrin file to the AnnBenBaseRate field in the
Board file.

(i) Active employees                                 We found no exceptions as a result of the
                                                     procedure. The MGT staff comparison
                                                     also found no exceptions.

(ii) Inactive employees                              N/A

f. BGLI Amount

Compare the TP_OrigLifeAmount field in the
Towers Perrin file to the BGLI_Amount field in
the Board file.

(i) Active employees                                 N/A

(ii) Inactive employees                              We found four exceptions as a result of the
                                                     procedure: The BGLI amounts of four
                                                     inactive employees do not exactly match.
                                                     The MGT staff comparison also found the
                                                     same four exceptions.
